TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Increased Outreach Efforts Could Enhance
                  Taxpayer Awareness of the Benefits of the
                     Qualified Joint Venture Filing Option



                                          March 17, 2010

                              Reference Number: 2010-40-034




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 March 17, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Increased Outreach Efforts Could Enhance
                               Taxpayer Awareness of the Benefits of the Qualified Joint Venture
                               Filing Option (Audit # 200940023)

 This report represents the results of our review to determine whether taxpayers that appear to
 meet the requirements to elect Qualified Joint Venture (QJV) 1 treatment on their tax return were
 adequately informed of this information and the potential benefits it provides. The audit
 addresses the major management challenges of Taxpayer Rights and Entitlements and Reduction
 of Taxpayer Burden and is part of our Fiscal Year 2009 Annual Audit Plan.

 Impact on the Taxpayer
 For Tax Year 2007, approximately 40,000 U.S. Return of Partnership Income (Form 1065) and
 an additional 350,000 U.S. Individual Income Tax Returns (Form 1040) containing Profit or
 Loss From Business (Schedule C) were filed by taxpayers who could have potentially benefited
 by electing to use the new QJV option. We identified many potentially qualified individuals who
 were not aware of this option. The new option allows taxpayers to bypass the filing of the
 Form 1065 and the associated Supplemental Income and Loss (Schedule E) on Form 1040 and
 file only a Form 1040 with two supporting Schedules C and two Self-Employment Tax
 (Schedule SE). Married individuals currently filing a single Schedule C might benefit from the
 new option by allocating the Schedule C income and having both individuals receive Social
 Security credit, resulting in potential future Social Security benefits.

 1
  The provision allows married taxpayers who wholly own a business to be treated as sole proprietors rather than
 partners for tax purposes.
               Increased Outreach Efforts Could Enhance Taxpayer Awareness
                  of the Benefits of the Qualified Joint Venture Filing Option




Synopsis
Prior to Tax Year 2007, joint husband-and-wife businesses with material participation by both
spouses were considered partnerships and were required to file Form 1065 annually, as well as
their regular Form 1040. Legislation was enacted to make the QJV option effective with the start
of Tax Year 2007 to simplify the filing requirements for husband-and-wife businesses by
allowing them to be treated as sole proprietorships rather than partnerships for tax purposes. The
option also helps to ensure each spouse gets proper Social Security credit for his or her
self-employment earnings.
Many taxpayers were not aware of the QJV filing option. Our review found two reasons
contributing to the lack of awareness of this new option. First, the Internal Revenue Service
(IRS) did not clearly present the new tax law provision and its associated benefits in some of its
publications or provide sufficient outreach to emphasize the new tax law change to the paid
preparer community. Second, the tax preparation software packages used by taxpayers and paid
preparers did not adequately prompt or notify users of the new provision.

Recommendations
Increased outreach efforts could further taxpayer awareness and increase the number of qualified
taxpayers electing treatment as a QJV. We recommended the Director, Tax Forms and
Publications, Wage and Investment Division, and the Director, Examination, Small Business/
Self-Employed Division, ensure publications and instructions for QJV election are clear and
accurate. The tax products and IRS public web site, IRS.gov, should include explanations on
partnership status and potential spousal benefits when electing the QJV filing option. The
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division,
should work more closely with the tax preparation software vendor community to ensure
software packages adequately alert users of tax preparation software about the QJV election.
Also, the Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
Division, and the Director, Communications and Liaison, Wage and Investment Division, should
design an outreach marketing plan for husband-and-wife businesses and tax practitioners to
ensure the market segment and practitioner industry are aware of the QJV election and its
benefits. The plan should explain the potential Social Security benefits and reduction of
taxpayer burden.

Response
IRS management agreed with all of our recommendations. They committed to improve their
efforts to provide clear and understandable information regarding QJVs, including various
options available to taxpayers. They will update their publications and forms, update the content

                                                                                                     2
               Increased Outreach Efforts Could Enhance Taxpayer Awareness
                  of the Benefits of the Qualified Joint Venture Filing Option



on IRS.gov to ensure it is accurate and understandable, and enhance their marketing efforts to
software industry professionals. In addition, they will undertake an effort to ensure the spousal
elections, and their impact on Social Security benefits, are clearly communicated to the
taxpayers. Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
Account Services), at (202) 622-6513.




                                                                                                    3
                     Increased Outreach Efforts Could Enhance Taxpayer Awareness
                        of the Benefits of the Qualified Joint Venture Filing Option




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Many Taxpayers Are Not Aware of the Qualified Joint Venture
          Filing Option.................................................................................................Page 3
                    Recommendations 1 through 3:.........................................Page 9

                    Recommendation 4:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Questions to Taxpayers .........................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
        Increased Outreach Efforts Could Enhance Taxpayer Awareness
           of the Benefits of the Qualified Joint Venture Filing Option




                        Abbreviations

IRS               Internal Revenue Service
QJV               Qualified Joint Venture
TIGTA             Treasury Inspector General for Tax Administration
                  Increased Outreach Efforts Could Enhance Taxpayer Awareness
                     of the Benefits of the Qualified Joint Venture Filing Option




                                           Background

During May 2007, legislation was enacted 1 to simplify the filing requirements for
husband-and-wife businesses and also to help ensure
both spouses get proper Social Security credits for
their earnings while self-employed. A provision in the     The law provides taxpayers
legislation known as the Qualified Joint Venture            an additional option when
(QJV) provision was effective for Tax Year 2007            reporting  their income from
                                                             a Qualified Joint Venture.
returns. The provision allows married taxpayers who
wholly own a business to be treated as sole proprietors
rather than partners for tax purposes.
Previously, married taxpayers who materially participated in the business were considered
partners, even if there was no official partnership agreement. As such, the taxpayers were
required to file a U.S. Return of Partnership Income (Form 1065) annually, as well as their
regular U.S. Individual Income Tax Return (Form 1040). The new law provides taxpayers an
additional option when reporting their income from a QJV, allowing the taxpayers to decide how
to file.
Because the partnership filing requirement was costly and time consuming, many taxpayers
avoided the filing requirement by reporting the self-employed income as earned by only one of
the spouses on the Form 1040, indicating the business was a sole proprietorship, a filing option
allowed by the Internal Revenue Service (IRS). However, this resulted in the other spouse
receiving no Social Security credit for his or her portion of the self-employment income.
Recognizing that this situation was burdensome for taxpayers, the IRS National Taxpayer
Advocate recommended in her Fiscal Year 2002 and 2004 annual reports that the law be
changed. According to the National Taxpayer Advocate, the issue arose as a ‘common-sense
change’ and not because of some reported problems or specific taxpayer complaints. The Fiscal
Year 2002 report stated there were approximately 2.1 million joint returns filed in Tax Year 1999
with a Profit or Loss From Business (Schedule C) for which the spouse did not have any wages.
From this, the National Taxpayer Advocate inferred that these returns could be affected by the
issue.
The practical effect of the law is that taxpayers are now allowed to split their business income on
two Schedules C 2 and also split the net self-employment earnings on two Self-Employment Tax

1
  U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007,
Pub. L. No. 110-28, 121 Stat. 193 (2007).
2
  The provision also applies to farm income reported on Profit or Loss From Farming (Schedule F). However, for
simplicity we limited the scope of our audit to Schedule C filers.
                                                                                                         Page 1
                   Increased Outreach Efforts Could Enhance Taxpayer Awareness
                      of the Benefits of the Qualified Joint Venture Filing Option



(Schedule SE) forms. This will ensure that both taxpayers get proper Social Security credits. In
addition, taxpayers are no longer required to file a Form 1065, which greatly reduces taxpayer
burden when preparing and filing the returns.
The QJV election is one of three filing options available to husband-and-wife businesses.
Figure 1 shows the forms to be filed and the potential advantages and disadvantages under each
option.
      Figure 1: Tax Year 2007 Filing Options for Husband-and-Wife Businesses
   Filing         Filing         Forms /
                                                              Advantages                           Disadvantages
   Option         Type          Schedules

                            - 1 Form 1040
                  Married                       - Taxpayer files only one type of tax
 Sole                                                                                         - Only one spouse receives
                  Filing    - 1 Schedule C        return with two schedules: Form 1040,
 Proprietorship                                                                               Social Security credit.
                  Jointly                         Schedule C, and Schedule SE.
                            - 1 Schedule SE

                                                - Taxpayer does not have to file
                                                  Form 1065; Partner’s Share of Income,
                            - 1 Form 1040                                                     - Increased taxpayer
                  Married                         Deductions, Credits, etc. (Schedule K-1);
 Qualified                                                                                      burden to file additional
                  Filing    - 2 Schedules C       and Supplemental Income and Loss
 Joint Venture                                                                                  Schedules C and SE.
                  Jointly                         (Schedule E).
                            - 2 Schedules SE
                                                - Both spouses receive Social Security
                                                  credits

                            - 1 Form 1065
                            - 2 Schedules K-1   - Both spouses receive Social Security
                  Married                                                                     - This option requires the
 Partnership      Filing    - 1 Form 1040         credits                                       highest number of forms
                  Jointly                                                                       and schedules.
                            - 1 Schedule E
                            - 2 Schedules SE
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS publications and instructions.

This review was performed at the IRS Fresno Submission Processing Site and included
discussions with officials in the IRS National Headquarters in Washington, D.C. The review
was conducted during the period November 2008 through September 2009 and included a survey
of taxpayers nationwide. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.



                                                                                                                   Page 2
                  Increased Outreach Efforts Could Enhance Taxpayer Awareness
                     of the Benefits of the Qualified Joint Venture Filing Option




                                      Results of Review

Many Taxpayers Are Not Aware of the Qualified Joint Venture Filing
Option
To identify taxpayers who may be eligible for the QJV option and determine if they were aware
of the option, we sent survey questionnaires to a random sample of 400 married taxpayers
reporting income from a partnership (Form 1065) and to 800 married taxpayers reporting income
from a sole proprietorship (Schedule C) in Tax Year 2007. 3 Survey results indicated many joint
taxpayers were not aware of the QJV filing option.
We received 95 replies from taxpayers filing Forms 1065. Fifty-two of the taxpayers who
replied qualified for the QJV option. Only 8 of the 52 were aware of but chose not to elect the
option. 4 The remaining 44 (85 percent) were unaware of the option, and 37 (71 percent) of the
52 would consider using it in the future. Figure 2 shows the Form 1065 filers who were eligible
for the QJV option.
           Figure 2: Form 1065 Filers Who Were Eligible for the QJV Option

                                        Responses by 52 Form 1065 Filers

                                                             Taxpayers Aware of the QJV Option
                                                               but Choosing Not to Use It - 8
                                                    37
                  8           44                            Taxpayers Unaware of the QJV Option
                                                                           44
                                                7
                                                            Taxpayers Unaware of the QJV Option
                                                            Who Will Consider It in the Future - 37
                                                            Taxpayers Unaware of the QJV Option
                                                            Who Will Not Use It in the Future - 7



               Source: TIGTA surveys of Tax Year 2007 married taxpayers filing Forms 1065.




3
  We identified partnership tax returns with a single Schedule E, two Schedules SE, and no Schedule C or F. We
also identified individual tax returns with a single Schedule C, one or more Schedules SE, and no Schedule F. We
identified 104,300 Form 1065 filers and 4.8 million Schedule C filers potentially eligible for the QJV option.
4
  Taxpayers who were aware of the QJV option but did not use it either believed they would not qualify, preferred
filing the old way they had in the past, or were advised by their tax preparer not to use the QJV option.
                                                                                                           Page 3
                  Increased Outreach Efforts Could Enhance Taxpayer Awareness
                     of the Benefits of the Qualified Joint Venture Filing Option



We received 166 replies from taxpayers filing Schedules C. Fifteen of these taxpayers qualified
for the QJV option. Only 3 of the 15 were aware of but chose not to elect the option. The
remaining 12 (80 percent) were unaware of the option, and *******1********of the 15 would
consider using it in the future. Figure 3 shows the Schedule C filers who were eligible for the
QJV option.
           Figure 3: Schedule C Filers Who Were Eligible for the QJV Option

                                       Responses by 15 Schedule C Filers

                                                            **********************1*****

                                                    **1     Taxpayers Unaware of the QJV Option
                 **1          12                                           12
                                              **1         **1
                                                            ***********1***********

                                                                ************1************




               Source: TIGTA surveys of Tax Year 2007 married taxpayers filing Schedules C.

To determine reasons why many filers were not aware of the QJV option, we reviewed the
instructions provided by the IRS in publications, forms, and tax preparation web sites. We also
tested consumer tax preparation software to see if the software provided the preparer with QJV
prompts whenever there was an indication of qualifying for the QJV option.

Some publications and instructions could be more complete or clear
Federal guidelines 5 require information to be presented in a clear, accurate, and complete
manner, including information disseminated via the Internet. We observed that the IRS did not
always ensure that QJV information in forms and instructions was clear and complete.
The IRS updated forms and form instructions, as well as the IRS public web site, IRS.gov, with
QJV information. QJV information was presented in the “What’s New” sections and in the text
of instructions providing information that accurately described who is eligible and how to elect
the option. Instructions related to one form, Schedule E, and two publications, Taxable and
Nontaxable Income (Publication 525) and Residential Rental Property (Publication 527),
presented QJV information in a clear, direct, and readable manner.



5
 Office of Management and Budget, Guidelines for Ensuring and Maximizing the Quality, Objectivity, Utility, and
Integrity of Information Disseminated by Federal Agencies, (Washington DC: OMB October 1, 2001).
                                                                                                        Page 4
                Increased Outreach Efforts Could Enhance Taxpayer Awareness
                   of the Benefits of the Qualified Joint Venture Filing Option



However, the QJV filing option information was not as clear in the Farmer’s Tax Guide
(Publication 225), Tax Guide for Small Business (Publication 334), and Partnerships
(Publication 541), and was not presented clearly in Schedules C, E, and F. We found the
benefits of the filing option were explained only in Publication 541. All these documents had the
partnerships and QJV information presented in the same paragraphs, with the QJV filing option
discussed only towards the end. For example, the QJV filing option is discussed after the
partnership filing requirement in the instructions for Publication 541 (Rev. April 2008) presented
below:




The first three sentences instruct taxpayers to file a partnership return. While the QJV option is
presented in the example above, those first three sentences may cause taxpayers to read no
further than the partnership filing requirement information, thus the taxpayer is left unaware of
the new filing option. In addition, the IRS does not use a QJV information caption in this
publication. Clarity could be improved by presenting QJV instructions separately under a QJV
caption, as the IRS did in Tax Year 2007 Schedule SE instructions presented below:




                                                                                             Page 5
                     Increased Outreach Efforts Could Enhance Taxpayer Awareness
                        of the Benefits of the Qualified Joint Venture Filing Option



The information provided to the public does not adequately emphasize the benefits such as the
Social Security benefit to the spouse or not having to file a partnership return when using the
QJV filing option. Publication 541 (Rev. April 2008) provides only minimal information on
Social Security benefits as shown below:




With the exception of Publication 541 and IRS.gov, none of the related instructions we reviewed
in publications, forms, and schedules contained details of the Social Security benefits related to
the QJV option. While IRS.gov presents information on the Social Security benefit, it states that
certain married co-owners could avoid filing partnership returns, but the web site does not
elaborate on this as a benefit derived from choosing the QJV filing option.
In addition, there may be some confusion that using the QJV filing option will terminate the
partnership entity. Both Form 1065 instructions and IRS.gov state, “The partnership terminates
at the end of the tax year immediately preceding the year the election takes effect.” The IRS has
stated that only the partnership filing requirement is terminated and not the partnership itself.
Taxpayers can use the partnership Employer Identification Number 6 again if they no longer
qualify for the QJV filing option. If taxpayers believe their partnership entity will be terminated,
they may not want to use the QJV filing option.
Per the IRS web site, the Tax Forms and Publications office mission statement is to originate and
improve tax forms, instructions, and publications that 1) are technically accurate, timely,
understandable, and as easy to use as possible and 2) enable taxpayers to fulfill their tax filing
and payment obligations. This office provides the tax forms, form instructions, and publications
to the Submission Processing office for them to determine the record layout changes to
communicate to the tax preparation software industry via the Electronic Return File
Specifications for Individual Income Tax Returns (Publication 1346).




6
    A unique nine-digit number used to identify a taxpayer’s business account.
                                                                                             Page 6
                   Increased Outreach Efforts Could Enhance Taxpayer Awareness
                      of the Benefits of the Qualified Joint Venture Filing Option



The QJV filing option was not emphasized in tax preparation software
Many tax preparation software packages are designed to work in two ways. For taxpayers with
limited knowledge of tax laws, there is a guided interview process to help determine what areas
apply to the taxpayer depending on how they answer certain questions. Taxpayers with more
advanced knowledge can choose to go directly to the sections that they want to complete to
prepare their return in a minimal amount of time.
Replies from our random sample of taxpayer surveys showed that 97 percent of Form 1065 filers
and 90 percent of Schedule C filers used a paid preparer or tax preparation software package to
prepare their tax returns. Figure 4 gives detailed information on the replies we received from our
taxpayer surveys.
           Figure 4: Paid Preparers and Tax Preparation Software Packages

            Form 1065 Taxpayer Replies                          Schedule C Taxpayer Replies
                   3%

                                    Paid Preparer                     10%
             15%                                                                          Paid Preparer

                                    Used Software               26%                       Used Software

                                    No Preparer                                           No Preparer
                        82%                                                  64%
                                    No Software                                           No Software




    Source: TIGTA analysis of Form 1065 and Schedule C questionnaire replies for Tax Year 2007 returns filed.

To test if consumer tax preparation software prompted for the QJV election, we prepared seven
Tax Year 2007 returns reporting income from a partnership or a sole proprietorship. Each return
included the same basic criteria of a joint return that would result in Schedules E and SE for
Form 1065 filers and in Schedules C and SE for the Schedule C filers. We reviewed the legal
requirements for the QJV election as set forth in the law, 7 IRS forms, and Publication 541 to
ensure the sample test data qualified for the QJV election. In the scenario we used, the taxpayer
is eligible for the election.
In the two major software packages we tested, there were no specific prompts about the QJV to
alert the user to the potential benefits of electing the QJV option. The user needed to be aware of
the QJV and/or have tax knowledge of how to answer questions in order to generate the forms


7
 U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007,
Pub. L. No. 110-28, 121 Stat. 193 (2007).
                                                                                                          Page 7
                   Increased Outreach Efforts Could Enhance Taxpayer Awareness
                      of the Benefits of the Qualified Joint Venture Filing Option



and schedules required to elect the QJV option. One tax preparation software package did
provide side margin Frequently Asked Questions for the user to obtain more information, but no
specific prompts were provided to alert the user of potentially qualifying for QJV treatment.
In addition to the software we tested, we obtained tax preparation software screen prints for two
other software packages. Both screen prints applied to preparation of Tax Year 2007 returns and
should have generated whenever a joint Schedule C business was selected. The screen prints
displayed a caution for the preparer to file a partnership return or elect the option to file two
separate Schedules C. One screen print included an additional caution that their client may
receive IRS inquiries if a joint Schedule C is filed. This caution may discourage preparers from
the QJV election.
We also spoke with member practitioners from the American Institute of Certified Public
Accountants and the National Association of Enrolled Agents to determine if the professional tax
preparation software these practitioners used included adequate information to alert the user
about the QJV election. The practitioners stated their professional tax preparation software 8 did
not prompt them for the QJV election; however, some of these practitioners stated that their
software 9 provided drop down menus or checkboxes needed to prepare the QJV schedules or
provided a screen for joint Schedule C filers. Practitioners also stated the IRS did not emphasize
the QJV filing option when issuing guidance.
The IRS Electronic Tax Administration office has a National Account Management program
with a mission to “ease taxpayer burden and increase compliance by establishing and
maintaining relationships with National Accounts, industry and IRS; and developing and
exploring new electronic business opportunities and effectively managing associated issues.”
Many top tax preparation software providers participate in the National Account Management
program and have their own assigned IRS account manager. The Electronic Tax Administration
office also provides assistance as a mediator between the industry and the IRS.
The Small Business/Self-Employed Division has a Communications office with a role that
“designs, develops and implements communication strategies and plans, and delivers
communications for internal and external stakeholders.” This role is accomplished by working
with business owners to enhance understanding and taxpayer compliance, identifying objectives
and appropriate communication and delivery channels that leverage relationships with
stakeholders, supporting marketing efforts to practitioners and small business communities, and
ensuring a communications link exists across the Small Business/Self-Employed Division
business units and other IRS functions and operating divisions.
Consumer and professional tax preparation software packages did not adequately prompt the user
to the QJV election, thus many taxpayers and preparers may be unaware of the QJV option. This


8
    Lacerte, ProSeries, and Ultra Tax.
9
    Lacerte, ProSystemFX, and Tax Works.
                                                                                           Page 8
               Increased Outreach Efforts Could Enhance Taxpayer Awareness
                  of the Benefits of the Qualified Joint Venture Filing Option



presents a taxpayer burden to potentially 40,000 Form 1040 filers having to also file Form 1065
for their husband-and-wife business and could adversely affect taxpayer rights and entitlements
for 350,000 Schedule C spousal taxpayers who do not split the income between both spouses in
order to earn Social Security credit for each portion of their self-employment income. Based on
the survey replies received from taxpayers and tax professionals, increased outreach efforts could
further taxpayer awareness and increase the number of qualified taxpayers electing the QJV
option.

Recommendations
Recommendation 1: The Director, Tax Forms and Publications, Wage and Investment
Division, should ensure all tax products (forms, instructions, publications) that include a
discussion on QJVs produced by Tax Forms and Publications are clear and accurate. The tax
products should include explanations that are consistent on partnership status and potential
spousal benefits when electing the QJV filing option.
       Management’s Response: IRS management agreed with this recommendation. Tax
       Forms and Publications office management will review all tax products containing
       information on QJVs to ensure the information is clear and accurate. They will also
       ensure the tax products include a consistent discussion on husband-and-wife businesses
       and provide information to show each spouse how to obtain credit for his or her
       respective Social Security earnings on which retirement benefits will be based.
Recommendation 2: The Director, Examination, Small Business/Self-Employed Division,
should ensure all related IRS publications and instructions on the IRS.gov web site that include a
discussion on QJVs are clear and accurate. The IRS.gov information should include
explanations that are consistent on partnership status and potential spousal benefits when electing
the QJV filing option.
       Management’s Response: IRS management agreed with this recommendation.
       They will review all related IRS publications and instructions located on the IRS.gov web
       site that discuss QJVs to ensure the information is clear and accurate. They will include
       explanations that are consistent on partnership status and refer to the potential spousal
       benefits that pertain to the QJV filing option.
Recommendation 3: The Director, Electronic Tax Administration and Refundable Credits,
Wage and Investment Division, should work more closely with tax preparation software vendors
to help ensure tax preparation software packages are adequately prompting taxpayers and paid
preparers to the QJV election when it becomes apparent they may qualify for the election.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Electronic Tax Administration and Refundable Credits, Wage and Investment
       Division will work with the Small Business/Self-Employed Division to increase outreach
       to the software industry through their regularly scheduled meetings and conferences with
                                                                                            Page 9
              Increased Outreach Efforts Could Enhance Taxpayer Awareness
                 of the Benefits of the Qualified Joint Venture Filing Option



       the industry throughout the year. The Examination function has agreed to provide a
       subject matter expert to address the industry and to fully explain the QJV option.
Recommendation 4: The Director, Communications, Liaison, and Disclosure, Small
Business/Self-Employed Division; the Director, Examination, Small Business/Self-Employed
Division; and the Director, Communications and Liaison, Wage and Investment Division, should
design an outreach marketing plan for husband-and-wife businesses and tax practitioners to
ensure the market segment and practitioner industry are aware of the QJV election. The plan
should explain the potential Social Security benefits and reduction of taxpayer burden.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
       Division; the Director, Examination, Small Business/Self-Employed Division; and the
       Director, Communications and Liaison, Wage and Investment Division agree to design
       an outreach marketing plan focused on the availability of the QJV election to certain
       taxpayers. This includes providing information to the husband-and-wife businesses
       market segment and the tax professional community to make them aware of potential
       spousal Social Security benefits and reduction of taxpayer burden when electing the QJV
       filing option.




                                                                                       Page 10
               Increased Outreach Efforts Could Enhance Taxpayer Awareness
                  of the Benefits of the Qualified Joint Venture Filing Option



                                                                                   Appendix I


        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether taxpayers who appear to meet the requirements
to elect QJV treatment on their tax return were adequately informed of this information and the
potential benefits it provides. To accomplish our objective, we:
I.     Determined whether the IRS provided adequate information related to the QJV provision
       in forms and publications and by other methods.
       A. Evaluated the primary forms and publications related to the filing of a U.S. Return
          Partnership Income (Form 1065) or a Profit or Loss From Business (Schedule C) to
          determine if they adequately conveyed information about QJV treatment and the
          potential benefits to making the election.
       B. Evaluated other methods the IRS used to disseminate QJV information (e.g., the IRS
          public web site, IRS.gov) to determine if they were adequate.
II.    Determined whether commercial software adequately informed professional tax preparers
       of the QJV election requirements and the benefits of the election.
       A. Contacted committee members of the American Institute of Certified Public
          Accountants and National Association of Enrolled Agents to determine if professional
          tax preparation software adequately prompted the user to the QJV election.
       B. Identified two major consumer tax preparation software packages and prepared seven
          sample returns using each software package to determine if these two consumer tax
          preparation software packages adequately prompted the user to the QJV election.
       C. Contacted a professional tax preparation software company to determine how QJV
          information is presented and conveyed in their software.
III.   Determined other possible reasons why taxpayers did not claim QJV treatment.
       A. Sent a survey questionnaire to 1,200 taxpayers and contacted the American Institute
          of Certified Public Accountants and National Association of Enrolled Agents
          professional accounting organizations to determine their reasons for not using the
          QJV filing option.
           We selected a statistically valid random sample to project the population of filers who
           potentially qualified for the QJV election. Using a 95 percent confidence level, an
           expected error rate of 50 percent, and precision factor of ± 5 percent, we selected
                                                                                          Page 11
                     Increased Outreach Efforts Could Enhance Taxpayer Awareness
                        of the Benefits of the Qualified Joint Venture Filing Option



                Tax Year 2007 samples of 400 taxpayers from the Form 1065 filing population of
                104,300 and 800 taxpayers from the Schedule C filing population of 4.8 million.
                All computer-processed data were extracted from the TIGTA Data Center Warehouse
                Returns Transaction Files (Individual Master File). 1 We validated the data by
                examining a random sample of 25 from each sample population. All criteria used to
                extract the data were confirmed in the data validation samples. This validation test
                demonstrated that the data were sufficiently reliable and could be used to meet the
                objectives of this audit.
           B. Evaluated the questionnaire responses and other information to determine the primary
              reasons why taxpayers did not make the election and why tax preparers would not use
              the QJV filing option.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division and the Wage and Investment Division policies, procedures, and practices for
communicating new tax law changes. We evaluated these controls by reviewing instructions
provided on related forms, publications, and web sites and by interviewing management and
other employees associated with promoting awareness of new tax laws. We assessed the
accuracy of information communicated via the IRS’ forms, publications, and web site. In
addition, we also reviewed survey responses from affected taxpayers and tax practitioners.




1
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                            Page 12
              Increased Outreach Efforts Could Enhance Taxpayer Awareness
                 of the Benefits of the Qualified Joint Venture Filing Option



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Richard J. Calderon, Audit Manager
Jennie G. Choo, Lead Auditor
Glory Jampetero, Senior Auditor
John B. Mansfield, Senior Auditor
Steven D. Stephens, Senior Auditor




                                                                                    Page 13
              Increased Outreach Efforts Could Enhance Taxpayer Awareness
                 of the Benefits of the Qualified Joint Venture Filing Option



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Communications and Liaison, Wage and Investment Division SE:W:C
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                                     Page 14
                 Increased Outreach Efforts Could Enhance Taxpayer Awareness
                    of the Benefits of the Qualified Joint Venture Filing Option



                                                                                        Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 40,000 U.S. Return of Partnership Income (Form 1065) joint
    taxpayers were burdened with additional time and cost in preparing forms to file their tax
    returns as partnerships (see page 3).

Methodology Used to Measure the Reported Benefit:
To determine the number of joint Form 1065 taxpayers who were burdened with filing additional
forms, we first had to determine the number of joint Form 1065 taxpayers that potentially
qualified for the QJV option.
All data were queried and extracted from the TIGTA Data Center Warehouse Returns
Transaction Files (Individual Master File). 1 We queried for all Tax Year 2007 joint returns
processed in Processing Year 2008 with a single Supplemental Income and Loss (Schedule E),
two Self-Employment Tax (Schedule SE), and no Profit or Loss From Business (Schedule C) or
Profit or Loss From Farming (Schedule F). 2 Our criteria identified 104,300 filers in the
Form 1065 population that could potentially qualify for the QJV provision.
Our sample size was determined based on a 95 percent confidence level, an expected error rate
of 50 percent, and a precision factor of ± 5 percent. A statistically valid random sample was
taken because we wanted to project the number of joint taxpayers that were potentially eligible to
elect the QJV option. A sample size of 383 was identified from our Form 1065 population. We
increased our sample size to 400 to allow for cases that would need to be excluded from our
sample. We sent a survey questionnaire to 400 joint taxpayers and received a 24 percent
response rate. Based on the number of replies received, we adjusted our original precision factor
of ± 5 percent to a precision factor of ± 10 percent.



1
 The IRS database that maintains transactions or records of individual tax accounts.
2
 We omitted Schedules C and F because we could not determine where the Schedule SE income came from and we
would be unable to reconcile the Form 1065 income back to the Schedule SE without performing significant
analysis.
                                                                                                  Page 15
                  Increased Outreach Efforts Could Enhance Taxpayer Awareness
                     of the Benefits of the Qualified Joint Venture Filing Option



We received 95 Form 1065 taxpayer replies and identified that 52 (55 percent) of the taxpayers
who replied potentially qualified for the QJV option. Of those qualified, 67 percent were not
aware of the QJV option and another 2 percent believed they did not qualify but would consider
the QJV election. We multiplied the 104,300 Form 1065 population by 55 percent to project the
number of joint taxpayers potentially eligible to elect the QJV option, and then multiplied this
total by the 69 percent 3 potential taxpayer benefit to further project 39,582 joint taxpayers who
potentially prepared additional forms to file their returns as partnerships.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 350,000 Schedule C spousal taxpayers did not
    receive Social Security credits for their portion of self-employment income (see page 3).

Methodology Used to Measure the Reported Benefit:
To determine the number of joint Schedule C spousal taxpayers who potentially did not receive
Social Security credits for their self-employment income, we first had to determine the number
of joint Schedule C taxpayers that potentially qualified for the QJV option.
All data were queried and extracted from the TIGTA Data Center Warehouse Returns
Transaction Files (Individual Master File). We queried for all Tax Year 2007 joint returns
processed in Processing Year 2008 with a single Schedule C and positive income, one or more
Schedules SE, and no Schedule F. 4 Our criteria identified 4.8 million Schedule C filers who may
be eligible to qualify for the QJV option. We did not further refine our criteria because we did
not want to exclude potentially qualified Schedule C filers from the population.
Our sample size was determined based on a 95 percent confidence level, an expected error rate
of 50 percent, and precision factor of ± 5 percent. A statistically valid random sample was taken
because we wanted to project the number of joint taxpayers that were potentially eligible to elect
the QJV option. A sample size of 384 was identified from our Schedule C population. We
doubled our sample size to 800 because we anticipated a majority of replies received would
show that the taxpayers were not qualified for the QJV option. We sent a survey questionnaire to
800 joint taxpayers and received a 21 percent response rate. Based on the number of replies
received, we adjusted our original precision factor of ± 5 percent to a precision factor of
± 8 percent.
We received 166 Schedule C taxpayer replies and identified that 15 (9 percent) of the taxpayers
who replied potentially qualified for the QJV option. Of those qualified, ***1********* were
not aware of the QJV option and another ***********************1*******************

3
  We combined the ***1*** who were not aware with ***********1************************* and
identified them as missing the potential QJV benefit of reduction in taxpayer burden.
4
  Schedule F would only be included (but not reviewed) in our population if the taxpayer also had a single
Schedule C.
                                                                                                             Page 16
                 Increased Outreach Efforts Could Enhance Taxpayer Awareness
                    of the Benefits of the Qualified Joint Venture Filing Option



****1*************. We multiplied the 4.8 million Schedule C population by 9 percent to
project the number of joint taxpayers potentially eligible to elect the QJV option, and then
multiplied this total by the 80 percent 5 potential taxpayer benefit to further project
349,875 spousal taxpayers who did not receive Social Security credits for their portion of the
self-employment income.




5
  We combined the 67 percent who were not aware with the 13 percent who would consider the QJV option and
identified them as missing the potential QJV benefit of assigning Social Security credits to the spouse.
                                                                                                    Page 17
                Increased Outreach Efforts Could Enhance Taxpayer Awareness
                   of the Benefits of the Qualified Joint Venture Filing Option



                                                                                         Appendix V

                             Questions to Taxpayers

U.S. Return of Partnership Income (Form 1065) Filers:


   1. Indicate how your Tax Year (TY) 2007 tax return was prepared.
          • I used a paid tax preparer.
          • I used software (please write in the name of the software). _________________
          • I did not use a paid tax preparer or computer software.

   2. Did you and your spouse each ‘materially participate’ in the same self-owned business during
      TY 2007? See last page for the most common definitions used to define material participation.
          • Yes (go to next question).
          • No (stop here and return the questionnaire in the post-paid envelope).

   3. Were you aware when you filed your TY 2007 return that you could elect to be treated as a
      ‘Qualified Joint Venture’, and thereby avoid the Form 1065 (U.S. Partnership Income) filing
      requirement? See definitions on the last page for an explanation of ‘Qualified Joint Venture’.
         • Yes (go to next question).
         • No (go to Question 5).

   4. What reason(s) did you have for not making the election to be treated as a ‘Qualified Joint
      Venture’? Circle all that apply.
         • You believed you did not meet the qualifications for a Qualified Joint Venture.
         • You did not have enough information to enable you to make an informed decision.
         • You received advice not to file this way.
         • You believed filing with Form 1065 versus a Schedule C lowered your risk of a tax audit.
         • You forgot to make the election.
         • You qualified but opted not to make the election (please provide explanation at the end of
             the questionnaire).
         • Other (please provide explanation at the end of the questionnaire).

   5. Now that you are aware of this provision, will you consider using it in the future if you meet the
      requirements?
          • Yes.
          • No.




                                                                                                   Page 18
                 Increased Outreach Efforts Could Enhance Taxpayer Awareness
                    of the Benefits of the Qualified Joint Venture Filing Option



    6. What are the primary means by which you receive information about tax law changes? Circle all
       that apply.
           • IRS Forms and Instructions.
           • IRS Publications.
           • IRS Toll-Free phone assistance.
           • IRS Walk-In Site assistance (face-to-face).
           • Internet - IRS.gov website.
           • Internet – other websites (please describe). _________________________________
           • Tax Professional (please describe). _______________________________________
           • Other (please describe). ________________________________________________


    7. If possible, please estimate the time and cost incurred to file your TY 2007 Form 1065 (U.S.
       Partnership Income).

 Additional information. Please include any additional information from the questions above, as well as
   anything else you feel is pertinent to our inquiry. An additional page can be attached if needed.




                                               Definitions
Material Participation (taken from IRS Schedule C Instructions):
Participation generally includes any work you did in connection with an activity if you owned an interest in
the activity at the time you did the work. The capacity in which you did the work does not matter.
However, work is not treated as participation if it is work an owner would not customarily do in the same
type of activity and one of your main reasons for doing the work was to avoid the disallowance of losses
or credits from activity under the passive activity rules. Work you did as an investor in an activity is not
treated as participation unless you were directly involved in the day-to-day management or operations of
the activity.
You materially participated in the operation of this trade or business if you met ANY of the following seven
tests:
    1. You participated in the activity for more than 500 hours during the tax year.
    2. Your participation in the activity for the tax year was substantially all of the participation in the
       activity of all individuals for the tax year.
    3. You participated in the activity for more than 100 hours during the tax year and you participated at
       least as much as any other person for the tax year.
    4. The activity is a significant participation activity for the tax year and you participated in all
       significant participation activities for more than 500 hours during the year.
    5. You materially participated in the activity for any 5 of the prior 10 years.
    6. The activity is a personal service activity in which you materially participated for any 3 prior tax
       years.
    7. You participated in the activity on a regular, continuous, and substantial basis for more than
       100 hours during the tax year.



                                                                                                    Page 19
                 Increased Outreach Efforts Could Enhance Taxpayer Awareness
                    of the Benefits of the Qualified Joint Venture Filing Option



Qualified Joint Venture (taken from IRS Form 1065 instructions):
If you and your spouse materially participate as the only members of a jointly owned and operated
business, and you file a joint return for the tax year, you can make an election to be treated as a qualified
joint venture instead of a partnership. By making this election you will not be required to file Form 1065
for any year the election is in effect and will instead report the income and deductions directly on your
joint return.
To make this election, you must divide all items of income, gain, loss, deduction, and credit between you
and your spouse in accordance with your respective interests in the venture. Each of you must file a
separate Schedule C, C-EZ, or F. On each line of your separate Schedule C, C-EZ, or F, you must enter
your share of the applicable income, deduction, or loss. Each of you also must file a separate
Schedule SE to pay self-employment tax.
Once made, the election cannot be revoked without IRS consent. If you and your spouse filed a
Form 1065 for the year prior to the election, you do not need to amend that return or file a final Form 1065
for the year the election takes effect. However, the partnership terminates at the end of the tax year
immediately preceding the year the election takes effect.

Profit and Loss From Business (Schedule C) Filers:


    1. Indicate how your Tax Year (TY) 2007 tax return was prepared.
           • I used a paid tax preparer.
           • I used software (please write in the name of the software). _________________
           • I did not use a paid tax preparer or computer software.

    2. Did you and your spouse each ‘materially participate’ in the same self-owned business during
       TY 2007? See last page for the most common definitions used to define material participation.
           • Yes (go to next question).
           • No (stop here and return the questionnaire in the post-paid envelope).

    3. Were you aware when you filed your TY 2007 return that you could elect to be treated as a
       ‘Qualified Joint Venture’, which would help ensure that you and your spouse get proper
       credit with the Social Security Administration for your earnings? See definitions on the last
       page for an explanation of ‘Qualified Joint Venture’.
          • Yes (go to next question).
          • No (go to Question 5).




                                                                                                     Page 20
                 Increased Outreach Efforts Could Enhance Taxpayer Awareness
                    of the Benefits of the Qualified Joint Venture Filing Option



    4. What reason(s) did you have for not making the election to be treated as a ‘Qualified Joint
       Venture’? Circle all that apply.
          • You believed you did not meet the qualifications for a Qualified Joint Venture.
          • You did not have enough information to enable you to make an informed decision.
          • You received advice not to file this way.
          • You believed filing a single Schedule C lowered your risk of a tax audit.
          • You forgot to make the election.
          • You qualified but opted not to make the election (please provide explanation at the end of
              the questionnaire).
          • Other (please provide explanation at the end of the questionnaire).

    5. Now that you are aware of this provision, will you consider using it in the future if you meet the
       requirements?
           • Yes.
           • No.

    6. What are the primary means by which you receive information about tax law changes? Circle all
       that apply.
           • IRS Forms and Instructions.
           • IRS Publications.
           • IRS Toll-Free phone assistance.
           • IRS Walk-In Site assistance (face-to-face).
           • Internet - IRS.gov website.
           • Internet – other websites (please describe). _________________________________
           • Tax Professional (please describe). _______________________________________
           • Other (please describe). ________________________________________________

    7. If possible, please estimate the time and cost incurred to file the Schedule C (Profit or Loss From
       Business) attached to your TY 2007 Form 1040 (U.S. Individual Income Tax Return).

 Additional information. Please include any additional information from the questions above, as well as
   anything else you feel is pertinent to our inquiry. An additional page can be attached if needed.




                                               Definitions
Material Participation (taken from IRS Schedule C Instructions):
Participation generally includes any work you did in connection with an activity if you owned an interest in
the activity at the time you did the work. The capacity in which you did the work does not matter.
However, work is not treated as participation if it is work an owner would not customarily do in the same
type of activity and one of your main reasons for doing the work was to avoid the disallowance of losses

                                                                                                    Page 21
                 Increased Outreach Efforts Could Enhance Taxpayer Awareness
                    of the Benefits of the Qualified Joint Venture Filing Option



or credits from activity under the passive activity rules. Work you did as an investor in an activity is not
treated as participation unless you were directly involved in the day-to-day management or operations of
the activity.
You materially participated in the operation of this trade or business if you met ANY of the following seven
tests:
    1. You participated in the activity for more than 500 hours during the tax year.
    2. Your participation in the activity for the tax year was substantially all of the participation in the
       activity of all individuals for the tax year.
    3. You participated in the activity for more than 100 hours during the tax year and you participated at
       least as much as any other person for the tax year.
    4. The activity is a significant participation activity for the tax year and you participated in all
       significant participation activities for more than 500 hours during the year.
    5. You materially participated in the activity for any 5 of the prior 10 years.
    6. The activity is a personal service activity in which you materially participated for any 3 prior tax
       years.
    7. You participated in the activity on a regular, continuous, and substantial basis for more than
       100 hours during the tax year.


Qualified Joint Venture (taken from IRS Schedule SE instructions):
If you and your spouse materially participate as the only members of a jointly owned and operated
business, and you file a joint return for the tax year, you can make a joint election to be taxed as a
qualified joint venture instead of a partnership. To make this election, you must divide all items of
income, gain, loss, deduction, and credit between you and your spouse in accordance with your
respective interests in the venture. Each of you must file a separate Schedule C, C-EZ, or F. On each
line of your separate Schedule C, C-EZ, or F, you must enter your share of the applicable income,
deduction, or loss. You also must file a separate Schedule SE to pay Self-Employment tax on your share
of the joint venture income.




                                                                                                    Page 22
   Increased Outreach Efforts Could Enhance Taxpayer Awareness
      of the Benefits of the Qualified Joint Venture Filing Option



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 23
Increased Outreach Efforts Could Enhance Taxpayer Awareness
   of the Benefits of the Qualified Joint Venture Filing Option




                                                         Page 24
Increased Outreach Efforts Could Enhance Taxpayer Awareness
   of the Benefits of the Qualified Joint Venture Filing Option




                                                         Page 25
Increased Outreach Efforts Could Enhance Taxpayer Awareness
   of the Benefits of the Qualified Joint Venture Filing Option




                                                         Page 26
